V

Proof of Service
No. 20-1228
Jaye v. US District Court of Northern District of Iowa
I certify a pdf copy and forty booklets with a word count
certification, certificate of good faith and a $200 filing fee were
sent to the US Supreme Court hy tracked mail and by email to
Lisa Nesbitt today, April 13, 2021.
I further certify a copy of this petition has been sent for ECF
upload via the Clerk of the US District Court of the Northern
District of Iowa; submitted under threat of sanctions; for doing
so by Chief Judge Leonard Strand. (19-cv-121, ECF 193)
Applications to Justice Brett Kavanaugh
I further certify that one of the motions returned twice in 20705 (twice received when this Court had jurisdiction) has been
recaptions and sent to Justice Brett Kavanaugh.
I further certify the rejected applications in this underlying
matter that were sent and received while this Court had
jurisdiction are now being resent with this petition.
I further certify an additional motion and application to Justice
Brett Kavanaugh are being sent with in this package (which
will, of course, not be docketed by this Court’s staff).
Executed on April 13, 2021.

Cms Jaye
£/ Pro se
PO Box 5015
Clinton, NJ 08809
caj@okvnews.com

